REVIEW OF MANAGEMENT CONTROLS
  OVER GSA’S CENTRALLY BILLED
     TRAVEL CARD ACCOUNT
REPORT NUMBER A040172/B/A/F05015

       DECEMBER 29, 2004
provide GSA with reconciled charges. Upon receipt of the reconciliation, GSA pays
Citibank for all reconciled charges.

In the current environment, GSA associates use either a manual process or FedDesk –
Travel and Miscellaneous Reimbursement System (TMR)1 and FedTrip2 to request
travel arrangements and reimbursement for travel-related expenses. However, with the
release and award of the GSA Solicitation – FBGT-CD-030001-N for eTravel Service,
travel planning and administration will be made through the eTravel Service (eTS)
provider. eTS integrates travel planning and cost estimating; travel authorization;
reservations; fulfillment services; filing, processing, and approving official travel claims;
travel reimbursement data; and reporting and data exchange. In December 2004, GSA
placed a task order for eTS with CW Government Travel. The base period for the task
order runs through November 11, 2006, with three option periods extending until
November 11, 2013.

Objectives, Scope and Methodology

The objectives of our audit were to answer the following questions: Are there controls
over both the systems and the management of the CBA to ensure charges and
related payments are for authorized travel only?

Specifically, we determined whether:

    ¾ Internal controls are effective to prevent the Travel Management Center (TMC)
      from issuing tickets without proper authorization;
    ¾ GSA improperly reimburses travelers for the cost of airline tickets paid using the
      CBA;
    ¾ Other control weaknesses led to the CBA being compromised and fraudulently
      used;
    ¾ The TMC reconciles all CBA charges to its accounting system; and
    ¾ GSA's Finance Office is reconciling the travel authorization, travel voucher, and
      billing prior to payment.




1
  FedDesk was developed by the Finance Center in 1994, and is described as a launching platform
providing easy online access for important administrative functions. FedDesk began with the Electronic
Time and Attendance Management System (ETAMS), and the Finance Center added Travel and
Miscellaneous Reimbursement System (TMR) to FedDesk in 1997.
2
  FedTrip - a self-service online booking reservation system was developed for the Department of
Transportation by Atlanta-based TRX, Inc. to provide federal travelers with convenient 24-hour access to
reservations, profiles and itineraries.

                                                   2
   To make our assessment we:

   •   Reviewed Federal Travel Regulations, GSA Internal Travel Regulations, GSA
       orders and policies, System Documentation, and related GSA-OIG and
       Government Accountability Office (GAO) audit reports;
   •   Interviewed cognizant Federal Supply Service (FSS) officials, Region 6 Finance
       Office, Office of the Chief Financial Officer, and ADTRAV officials;
   •   Reviewed the Travel Services Solution (TSS) multiple award schedule solicitation
       and the eTravel Service (eTS) solicitation.

Our audit work was performed during the period April 2004 through July 2004. The
survey phase of the audit involved performing a “walkthrough” of 23 randomly selected
transactions charged to the CBA by FSS Central Office associates during the month of
March 2004. The charges were reviewed to obtain an understanding of the
management and system controls and the related payment and reconciliation
processes. In view of the observations we made during the survey phase of this review
and the imminent award and implementation of eTS, we decided to report out of the
survey phase and forgo actual fieldwork that would have involved detailed substantive
test work. We discussed this decision with officials in the Office of the Chief Financial
Officer and they concur with the decision to forgo additional testwork. The audit was
conducted in accordance with generally accepted government auditing standards.

Results of Review

Our limited review of 23 transactions charged to the CBA during March 2004 did not
disclose any significant irregularities in the use of the CBA. We commend the Office of
the Chief Financial Officer for having controls in place pertaining to system access and
security; authorization and voucher linkage in FedDesk - TMR; and contractual
reconciliation requirements for the TMC. However, we did identify areas for
strengthening the current and future control environment. Specifically:

   •   The travel authorization and voucher self-approval process – As per GSA’s
       Internal Travel Regulations, CHAPTER 2. AUTHORIZATION AND APPROVAL
       OF OFFICIAL TRAVEL - PART 1. DELEGATIONS OF TRAVEL AUTHORITY
       (2a), “authority to authorize and approve their own temporary duty travel is
       delegated to the Chief Financial Officer, Associate Administrators, Heads of
       Services and Staff Offices and Regional Administrators”. The current control
       environment does not flag other approving officials who have the ability to
       approve their own authorizations and/or vouchers.

   •   The system’s ability to ensure completion of a voucher for every ticket charged to
       the CBA.




                                            3
   •   The ability to terminate a Blanket Authorization, when applicable – Currently,
       blanket authorizations are only terminated at the end of a fiscal year leaving it
       vulnerable to unauthorized use.

   •   The travel system’s ability to prevent travelers from being reimbursed for
       transportation costs that were Direct Billed to GSA’s CBA – The current
       environment will allow reimbursement to an associate for transportation costs
       paid on the CBA.

   •   GSA’s process for ensuring that CBA charges are authorized – Currently, GSA
       relies solely on ADTRAV’s reconciliation without independently reviewing the
       charges.

Our review of 23 charges illustrated two of the control weaknesses stated above. One
traveler had not completed a travel voucher for a CBA charge, and another traveler was
reimbursed for transportation costs that were paid for on the CBA. Upon notification by
the Office of Inspector General, the voucher was completed and GSA was reimbursed,
both five months after the dates of travel.

Recommendations

As GSA moves into a new and challenging eTS environment, we believe controls over
the CBA can be strengthened. Therefore, we recommend that the Chief Financial
Officer:

   1. Establish a system control to limit approving officials from having the ability to
      approve their own authorizations/vouchers.

   2. Provide for system-generated series of notices when travel vouchers are not
      completed.

   3. Establish a process to terminate blanket authorizations, when applicable.

   4. Establish a system control requiring travelers to justify transportation costs that
      are not designated as Direct Billed on travel vouchers.

   5. Recognizing that an independent review of all CBA charges may not be feasible,
      establish an alternative control. Creating an interface between the travel
      authorization, ticket issuance, and travel vouchers would assist GSA in detecting
      unauthorized charges.




                                             4
APPENDICES
                         Appendix A




   Management Controls
   Over GSA’s Centrally
Billed Travel Card Account

       Report Number
    A040172/B/A/F05015



                                      1
     U.S. General Services
                                      Appendix A




          Administration
   Office of Inspector General
Acquisition Programs Audit Office
              (JA-A)
• Kenneth Crompton – Regional Inspector
  General for Auditing
• Carolyn Presley-Doss – Audit Manager
• Kevin Gallagher – Auditor
• Janine Parker – IT Specialist
• Lindsay Smith – Management Analyst
                                                   2
               Audit Objective
                                                            Appendix A




  Are there controls over both the system and the
     management of the Centrally Billed Account
   (CBA) travel card to ensure charges and related
       payments are for authorized travel only?

Specifically, we determined whether:
 Internal controls are effective to prevent the Travel Management
  Center (TMC) from issuing tickets without proper authorization;
 General Services Administration (GSA) improperly reimburses
  travelers for the cost of airline tickets paid using the CBA;
 Other control weaknesses led to the CBA being compromised and
  fraudulently used;
 The TMC reconciles all CBA charges to its accounting system; and
 GSA's Finance Office is reconciling the travel authorization, travel
  voucher, and billing prior to payment.


                                                                         3
                                            Appendix A


               Background
1.   Travel Charge Card - Centrally Billed Account
2.   FedDesk
3.   Travel Authorizations
4.   FedTrip
5.   Travel Vouchers
6.   Travel Approving Officials
7.   Travel Services Solution (TSS)
8.   CBA Reconciliation
9.   eTravel Services (eTS)




                                                         4
                                                  Appendix A


                 Background
1. Travel Charge Card – Centrally Billed Account

 In 1998, five banks were awarded contracts as part of
  the GSA SmartPay® program - GSA’s managed
  government-wide federal charge card program.
 The Travel Charge Card is offered under the GSA
  SmartPay® program.
 GSA awarded its task order to Citibank with a
  performance period of 11/30/98 to 11/29/00, with three
  one (1) year options to renew and five one (1) year
  options to renew which are contingent upon exercising of
  the master contract option periods.
 GSA expended approximately $10.5M on the Centrally
  Billed Travel Card for the first three quarters of fiscal
  year 2004.

                                                               5
                                            Appendix A


              Background
1. Travel Charge Card – Centrally Billed Account

 Travel cards may be either Government liability
  (centrally billed) or employee liability
  (individually billed).
 Centrally billed accounts were established to pay
  for official travel expenses. Centrally billed
  accounts are paid by the government to the
  bank.




                                                         6
                                       Appendix A


            Background
                 2. FedDesk

 Developed by the Finance Center in 1994 to
  provide easy online access for important
  administrative functions.
 Began with Electronic Time and Attendance
  Management System (ETAMS) and added Travel
  and Miscellaneous Reimbursement System (TMR)
  in 1997.




                                                    7
                                           Appendix A


               Background
            3. Travel Authorizations

 There are two types of travel authorizations:
   Single Trip
   Blanket
 Per GSA Internal Travel Regulations, blanket
  travel authorizations should be used whenever
  possible since they save time and reduce
  paperwork.
 Travel authorizations may be obtained
  electronically (FedDesk) or manually (Form 87).


                                                        8
                                            Appendix A


               Background
                    4. FedTrip

 Developed for the Department of Transportation
  by Atlanta-based TRX, Inc. to provide federal
  travelers with convenient 24-hour access to
  reservations, profiles and itineraries
 A self-service online booking reservation system
 Laid the foundation for how the Federal
  Government will use E-Government tools to
  improve its travel operations



                                                         9
                                            Appendix A


               Background
               5. Travel Vouchers

Per GSA Internal Travel Regulations:
 Travel vouchers must be submitted promptly
  within five (5) workdays after the travel is
  completed.
 Each travel voucher must be supported by a
  properly executed travel authorization before it
  can be paid.
 All travel vouchers must be forwarded to the
  voucher approving official to determine that
  travel was performed in accordance with the
  authorization, travel regulations and internal
  procedures.
                                                         10
                                                           Appendix A


                    Background
            6. Travel Approving Officials
Per GSA’s Approving Official’s Responsibility Memorandum:
 Travel Approving Officials are responsible for:
    9 Determining that authorized travel is required in the interest
      of the Government, is in accordance with the overall plans of
      the organizational unit, and is in accordance with GSA Internal
      Travel Regulations.
    9 Ensuring that the travel voucher is submitted for approval
      within 5 workdays from the completion of the travel action.
 Voucher approving officials must also ensure that all common
   carrier tickets charged to the GSA Centrally Billed Travel Card
   Account have been accounted for and that any unused ticket legs
   have been returned to the Travel Management Center for credit.
 This review is done to ensure that all travel on the voucher was
   performed for official purposes and any personal side trips and
   time in leave status are adequately reflected on the travel
   voucher.
                                                                        11
                                            Appendix A


               Background
          7. Travel Services Solution

 The Travel Services Solution Solicitation schedule
  was posted in February 2003 and provides one-
  stop shopping for all travel management needs.
 TSS was developed to offer travel agency
  services and travel consulting services to meet
  agency’s unique travel management
  requirements.
 GSA awarded the contract to Adventure Travel
  (ADTRAV) for its Travel Agent Services under the
  TSS. The contract period covers a base year of
  3/1/04 to 2/28/05, with four (4) one year option
  periods.
                                                         12
                                           Appendix A


               Background
             8. CBA Reconciliation

Per the Task Order, Statement of Work, Section C:
 ADTRAV has a contractual obligation to perform
  automated reconciliations of transportation
  billings charged through the CBA.
 ADTRAV must match Citibank’s transaction file
  data against its own and provide GSA with
  reconciled charges within five working days from
  receipt of a transaction file.



                                                        13
                                                      Appendix A


                Background
            9. The Future - eTravel

 eTravel is a part of the President’s E-Government
  initiative to employ the latest technology to
  create a more efficient, citizen-centered Federal
  Government.
 eTravel is an automated and integrated approach
  to managing Federal Government travel
  functions.
   eTS integrates travel planning; travel authorization;
    reservations; fulfillment services’ filing, processing and
    approving of travel claims; travel reimbursement data;
    and reporting.

                                                                   14
             Background                   Appendix A



           9. The Future - eTravel

 eTravel Services provides a web-based, end-to-
  end travel management service for Executive
  Branch departments and agencies of the Federal
  Government.
 Once eTravel is implemented, GSA will no longer
  use FedDesk-TMR or FedTrip.
 In December 2004, GSA selected CW
  Government Travel for its eTravel services.
 The projected date for full implementation of
  eTravel is September 2005.



                                                       15
                                           Appendix A




   Scope and Methodology
 Met with GSA’s Office of the Chief Financial
  Officer (OCFO) and Federal Supply Service (FSS)
  officials, Kansas City Finance Office, and ADTRAV
  representatives

 Reviewed Federal Travel Regulations, GSA
  Internal Travel Regulations, GSA Policies, System
  Documentation, and related GSA and
  Government Accountability Office (GAO) audits


                                                        16
   Scope and Methodology
                                            Appendix A




 Reviewed a random sample of 23 CBA charges of
  FSS Central Office associates during the period of
  March 3 through March 31, 2004
 Reviewed the travel authorization and the
  voucher for each charge
 Traced the CBA and voucher payments in the
  Financial Management Information System
 Reviewed system functionality and system
  security
 Reviewed systems for compliance with Joint
  Financial Management Improvement Program
  (JFMIP) Travel System Requirements

                                                         17
                                                 Appendix A

     Scope and Methodology
              Attributes Reviewed
 Were all travel authorizations and vouchers approved
  by an authorized approving official?
 Did every charge to the CBA have an accompanying
  travel voucher?
 Did travelers record airfare costs as Direct Billed on
  the voucher?
 Did travelers record the ADTRAV service fee as Direct
  Billed on the voucher?
 Did the travelers’ itinerary on the Citibank bill match
  the itinerary on the travel voucher?
 Did the airfare amount on the Citibank bill match the
  airfare amount on the travel voucher?
 Did the CBA charge appear on the ADTRAV matched
  report?
                                                              18
                                          Appendix A


       Internal Controls
As outlined in the Audit Objective, our focus was
on the adequacy of the system and management
controls over the travel authorization, travel
voucher, and subsequent payment of the
Centrally Billed Travel Card Account. As outlined
in this report, the internal controls over the
payment of the CBA charges should be
strengthened.




                                                       19
                                                                                                                           Appendix A




            Overview
   Lifecycle of a Transaction
   Ticket Activity                                                  Systems Involved/Manual

 Travel Authorization                                             FedDesk/Form 87

 Approval                                                         FedDesk/Form 87

 Reservation                                                      FedTrip/Phone, Fax, Email

 Ticketing                                                        ADTRAV – Worldspan

 Trip



The following flow chart has been modified from the original PowerPoint presentation to allow conversion for Section 508 compliance.



                                                                                                                                       20
                                                                                                                           Appendix A




          Overview
 Lifecycle of a Transaction
                                         Systems                                          CBA Payment
 Ticket Activity                         Involved/Manual                                  Process

 Voucher
 Preparation                             FedDesk/Manual

 Audit                                   FedDesk/Manual

 Approval                                FedDesk/Manual                                   Electronic Citibank
                                                                                          Statement Received

                                         TRAMS                                            Reconciliation


The following flow chart has been modified from the original PowerPoint presentation to allow conversion for Section 508 compliance.

                                                                                                                                       21
                                                                                                                           Appendix A




            Overview
   Lifecycle of a Transaction
   Ticket Activity                                                  Systems Involved/Manual

         Settlement                                                       Kansas City

         General Ledger                                                   Pegasys

         Report Generation                                                Pegasys, TRAMS




The following flow chart has been modified from the original PowerPoint presentation to allow conversion for Section 508 compliance.

                                                                                                                                       22
                                                Appendix A



   Control Observations
Controls needed to strengthen the current environment:
 System controls to prevent authorized approvers the
   ability to self-approve travel authorizations and
   vouchers
 System controls to ensure that vouchers are
   completed
 System controls and/or operational processes to
   terminate Blanket Authorizations, when applicable
 System controls to prevent travelers from receiving
   reimbursement for transportation costs that were
   Direct Billed to the CBA
 A reconciliation of travel authorization, vouchers, and
   tickets done by GSA prior to payment of the CBA

                                                             23
                                                           Appendix A



        Control Observations
 System controls to prevent authorized approvers the ability to self-
            approve travel authorizations and vouchers



  According to the JFMIP Travel System Requirements,
  travel systems must maintain separation of duties.

  Current Environment:
 FedDesk-TMR does not have a system control in place to
  prevent an approving official from approving their own
  authorizations and vouchers.
  Potential Exposure:
 A single individual has the ability to authorize, book, and
  voucher airfare.
 Unauthorized charges to the CBA may go undetected.
                                                                        24
                                                  Appendix A



    Control Observations
  System controls to ensure that vouchers are completed


Per GSA’s CFO office, it should be the responsibility of
  individual offices to review travel expenditures,
  ensure that authorizations and vouchers are
  completed, and that only authorized travel is taken.

  Current Environment:
 There is no GSA order that clearly defines roles and
  responsibilities.
 The FedDesk-TMR does not generate system notices when
  voucher is not completed.
  Potential Exposure:
 Unauthorized charges to the CBA may go undetected.


                                                               25
                                                         Appendix A


       Control Observations
System controls and/or operational processes to terminate Blanket
                 Authorizations, when applicable


Per the GSA Internal Travel Regulations, travelers are
  encouraged to use Blanket Travel Authorizations
  whenever possible because they save time and reduce
  the number of paper documents that GSA
  organizations have to prepare.

  Current Environment:
 There is no process in place to terminate a Blanket
  Authorization, when applicable.
  Potential Exposure:
 Unauthorized (personal) travel can be charged to GSA
  without detection.


                                                                      26
         Control Observations
                                                      Appendix A



    System controls to prevent travelers from receiving
 reimbursement for transportation costs that were Direct
                     Billed to the CBA

Transportation costs (air/rail fare) are Direct Billed to GSA’s
   Centrally Billed Account. Therefore, travelers should not
   request reimbursement for transportation charges on their
   travel vouchers.

  Current Environment:
    FedDesk’s TMR system allows for travelers to request
     reimbursement for tickets purchased using the CBA.
    GSA relies on approving official review of travel
     vouchers as a compensating control to prevent travelers
     from claiming reimbursement for tickets purchased
     using the CBA.
  Potential Exposure:
    Travelers can receive reimbursement for
     transportation costs purchased with the CBA.                  27
                                                             Appendix A


           Control Observations
A reconciliation of travel authorization, vouchers, and tickets done by
                    GSA prior to payment of the CBA


 Currently there are no directives or orders in place
   requiring GSA to reconcile charges to the CBA to
   travel authorizations and/or vouchers.

    Current Environment:
      ADTRAV reconciles the charges on the Citibank bill to
       their accounting system and GSA pays the Citibank bill
       without reviewing these charges.
         − CBA charges are not matched with a travel authorization
           and/or a travel voucher by GSA.
    Potential Exposure:
      GSA is vulnerable to paying for unauthorized charges on
       the CBA
                                                                          28
                                            Appendix A



          Detailed Findings
 One traveler had not completed a travel voucher
  for a CBA charge. After OIG notification, the
  voucher was completed and submitted five
  months after date of travel.
 One traveler was reimbursed for the ADTRAV
  service fee that was paid for on the CBA. After
  OIG notification, the traveler reimbursed GSA for
  the incorrect payment five months after date of
  travel.



                                                         29
                                              Appendix A




         Recommendations
 Establish a system control to limit approving
  officials from having the ability to approve their
  own authorizations/vouchers
 Provide for system-generated series of notices
  when travel vouchers are not completed
 Establish a process to terminate blanket
  authorizations, when applicable
 Establish a system control requiring travelers to
  justify transportation costs that are not
  designated as Direct Billed on travel vouchers
 Create an interface between the travel
  authorization, ticket issuance, and travel voucher
  systems                                            30
B-1
B-2
                REVIEW OF MANAGEMENT CONTROLS
         OVER GSA’S CENTRALLY BILLED TRAVEL CARD ACCOUNT
                REPORT NUMBER A040172/B/A/F05015

                           Report Distribution


                                                               Copies

Office of the Chief Financial Officer (B)……...………………...…………………………….3
Commissioner, Federal Supply Service (F)………………………………………………….1
Audit Follow-up and Evaluation Branch (BECA)…………………………………………….1
Assistant Inspector General for Auditing (JA, JAO)…………………………………………2
Assistant Inspector General for Investigations (JI)………………………………………….1




                                  C-1
